HHS/OIG, Audit - "Review of Pharmacy Claims Billed as Family Planning
Under New Jerseys Medicaid Program," (A-02-05-01019)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pharmacy Claims Billed as Family Planning
Under New Jerseys Medicaid Program," (A-02-05-01019)
July 27, 2007
Complete
Text of Report is available in PDF format (420 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to
determine whether the prescription drug claims for which New Jersey received
Federal reimbursement at the enhanced 90-percent rate of Federal financial
participation (FFP) qualified as family planning services.
New Jersey improperly
received Federal reimbursement at the enhanced 90-percent rate of FFP for
160,995 prescription drug claims that did not qualify as family planning
services.  As a result, the State improperly received $2,219,746 in Federal
Medicaid funds.  This amount represents the difference between the enhanced
90-percent rate and the applicable 50-percent or 52.95-percent Federal medical
assistance percentage.
We recommended that the
State (1) refund $2,219,746 to the Federal Government; (2) review all National
Drug Codes (NDC) presently coded as family planning in the Medicaid Management
Information System (MMIS) to verify that they are related to family planning;
(3) periodically review all NDCs to ensure that they are appropriately coded in
the MMIS; and (4) determine the amount of Federal
Medicaid
funds improperly reimbursed at the 90-percent rate for non-family-planning NDCs,
both prior and subsequent to our audit period, and refund that amount to the
Federal Government.  New Jersey concurred with our findings and recommendations.